Jean Coulter, Petitioner
v.
Tony Bagnato, et. al., Respondents
On Petition for Certiorari
to the Supreme Court of Pennsylvania
WORD COUNT
I hereby certify that the word count provided by the Word Processing
program on my computer, is 8632 words for the pertinent sections of the Petition
for Certiorari in this matter.
Je^n Coulter, Petitioner

CERTIFICATE OF SERVICE (corrected!
I hereby certify that on December 21. 2020.1 served Defendants Counsel by
email only (by agreement of Counsel), one, true and correct of the Petition for
Certiorari in Jean Coulter v. Tony Bagnato, et. al. (with the exception of the
Questions Presented Page which was inadvertently omitted). When I noticed the
missing page, on December 23, 2020,1 forwarded a copy of that page as well, with
both deliveries being sent to the addresses for Counsel shown below :
Caroline.liebenguth@pacourts.us - Respondents Ignelzi, O’Reilly, Wecht and Folino
,jswistak@c-wlaw.com - Respondents Lenzi and Cipriani & Werner
lee.dellecker@alleghenycounty.us - Respondent Bagnato only.

Jaan Coulter, Petitioner
620 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

